<html>
<title> - THE EMP THREAT: THE STATE OF PREPAREDNESS AGAINST THE THREAT OF AN ELECTROMAGNETIC PULSE (EMP) EVENT</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]








  THE EMP THREAT: THE STATE OF PREPAREDNESS AGAINST THE THREAT OF AN 
                   ELECTROMAGNETIC PULSE (EMP) EVENT

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON NATIONAL SECURITY

                                 AND THE

                      SUBCOMMITTEE ON THE INTERIOR

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 13, 2015

                               __________

                           Serial No. 114-42

                               __________

Printed for the use of the Committee on Oversight and Government Reform

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                      
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

96-952 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK MULVANEY, South Carolina        BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                    Sean McLaughlin, Staff Director
                 David Rapallo, Minority Staff Director
    Andrew R. Arthur, National Security Subcommittee Staff Director
         William McGrath, Interior Subcommittee Staff Director
                    Sharon Casey, Deputy Chief Clerk
                   Subcommittee on National Security

                    RON DESANTIS, Florida, Chairman
JOHN L. MICA, Florida                STEPHEN F. LYNCH, Massachusetts, 
JOHN J. DUNCAN, JR., Tennessee           Ranking Member
JODY B. HICE, Georgia                ROBIN L. KELLY, Illinois
STEVE RUSSELL, Oklahoma, Vice Chair  BRENDA L. LAWRENCE, Michigan
WILL HUR, Texas                      TED LIEU, California

                      Subcommittee on the Interior

                  CYNTHIA M. LUMMIS, Wyoming, Chairman
PAUL A. GOSAR, Arizona               BRENDA L. LAWRENCE, Michigan, 
BLAKE FARENTHOLD, Texas                  Ranking Member
KEN BUCK, Colorado, Vice chair       MATT CARTWRIGHT, Pennsylvania
STEVE RUSSELL, Oklahoma              STACEY E. PLASKETT, Virgin Islands
GARY J. PALMER, Alabama              JIM COOPER, Tennessee













                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 13, 2015.....................................     1

                               WITNESSES

Mr. George Baker, Professor Emeritus, James Madison University, 
  CEO of Baycor
    Oral Statement...............................................     5
    Written Statement............................................     8
Dr. Peter Vincent Pry, Executive Director, Task Force on National 
  and Homeland Security
    Oral Statement...............................................    21
    Written Statement............................................    23
Mr. Mike Caruso, Director of Government and Specialty Business 
  Development ETS-Lindgren
    Oral Statement...............................................    49
    Written Statement............................................    51

                                APPENDIX

Walpole Fire Department Research Paper 2012......................    70
Submission of William Graham, Commission to Assess Threat to U.S. 
  From EMP Attack................................................    71
Submission of William Radasky, Metatech Corporation..............    75
Submission of Thomas Popik, Resilient Societies..................    80
Opening Statement from Interior Ranking Member Brenda Lawrence...    85
Opening Statement from Congressman Trent Franks..................    87

 
  THE EMP THREAT: THE STATE OF PREPAREDNESS AGAINST THE THREAT OF AN 
                   ELECTROMAGNETIC PULSE (EMP) EVENT

                              ----------                              


                        Wednesday, May 13, 2015

                  House of Representatives,
     Subcommittee on National Security, Joint with 
                      Subcommittee on the Interior,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittees met, pursuant to call, at 2:20 p.m., in 
Room 2154, Rayburn House Office Building, Hon. Ron DeSantis 
[chairman of the subcommittee on National Security] presiding.
    Present for Subcommittee on National Security: 
Representatives DeSantis, Duncan, Hice, Russell, Lynch, Lieu, 
and Kelly.
    Present for Subcommittee on the Interior: Representatives 
Lummis, Gosar, Buck, Palmer, and Lawrence.
    Mr. DeSantis. The Subcommittees on National Security and 
Interior will come to order. Without objection, the chair is 
authorized to declare a recess at any time.
    The state of preparedness against the threat of an 
electromagnetic pulse is the subject of today's hearing. An 
electromagnetic pulse could be created through an attack from a 
missile, nuclear weapon, radio frequency weapon, or geomagnetic 
storm caused by the sun. Fallout from an EMP event, either man-
made or natural, could be extremely significant ranging from 
the loss of electrical power for months, which would deplete 
energy sources of power such as emergency batteries and backup 
generators have cascading consequences for supplying basic 
necessities such as food and water, and result in loss of life.
    The electrical grid is necessary to support critical 
infrastructure, supply and distribution of food, water, and 
fuel, communications, transportation, financial transactions 
and emergency and government services. Significant damage to 
the electrical grid during an EMP event would quickly and 
significantly degrade the supply of these basic necessities.
    EMPs can also be caused by solar storms, also referred to 
as geomagnetic disturbances, which are basically an everyday 
occurrence, they just doesn't always hit the Earth. Two 
significant storms that did enter the earth's atmosphere 
occurred in 1859 and 1921, respectively. Given the limited use 
of electricity in the mid-19th and early 20th centuries, the 
impact on society was relatively minimal.
    Today however, society depends heavily on a variety of 
technologies that are vulnerable to the effects of intense 
solar storms. Scientists predict that these storms impact the 
Earth once every 100 to 150 years. So it's not a question of 
if, but a question of when.
    The occurrence today on an event like the 1921 storm could 
result in large scale and prolonged blackouts affecting more 
than 100 million people. The National Academy of Sciences 
estimates the cost of damage from the most extreme solar 
weather at $1 to $2 trillion with a recovery time of 4 to 10 
years. The cost from even short-term blackouts are significant.
    In July of 1977, a blackout in New York that lasted only 
one day resulted in widespread looting and the breakdown of law 
through many New York neighborhoods. The blackout cost 
approximately $346 million and nearly 3,000 people were 
arrested during a 26-hour period. In August of 2003, more than 
200 power plants shut down as a result of the electricity cut 
off caused by cascading failure. The blackout affected Ohio, 
New York, Maryland, Pennsylvania, Michigan and parts of Canada. 
Although relatively short in duration, the blackout's economic 
cost was between $7 billion and $10 billion due to food 
spoilage, lost production, overtime wages and other related 
costs.
    To look at this threat, Congress has created two EMP 
commissions which reported their findings in 2004 and 2008. 
Based in large part on their recommendations, a bill has been 
introduced in every Congress since 2009 to strengthen 
protection of the electrical grid by mitigating the effects of 
an EMP. Some bills have passed the House but no bills have yet 
become law.
    Congress is not alone in its assessment of the EMP threat. 
State governments, such as in New York and Massachusetts have 
taken action themselves to protect portions of the electrical 
grid located within their respective States. Even some 
individual utilities have correctly assessed their 
vulnerability to EMP and hardened a few of their critical 
electrical control centers.
    The Department of Defense recently decided to move the 
North American Aerospace Defense Command, NORAD back inside 
Cheyenne Mountain in Colorado because the mountain is EMP 
hardened and would allow the military to sustain communications 
and homeland defense operations despite an EMP event.
    One of our witnesses here today, Dr. Peter Pry, wrote in 
The Wall Street Journal earlier this month about the military's 
decision and rightly surmised, ``The Pentagon was wise to move 
NORAD back into Cheyenne Mountain, but how are the American 
people to survive?'' The Department of Homeland Security, the 
Federal agency responsible for protecting the American 
citizens, is not doing enough to lead an interagency effort to 
mitigate the impact of an EMP event, leaving vast populations 
of Americans vulnerable to the effects of an EMP.
    Lastly, the draft executive order by the National Space 
Weather Strategy was released for comment earlier this month by 
the White House Office of Science and Technology Council. This 
order is necessary and clearly within the constitutional 
mandate to provide for the common defense, but it is an outline 
of goals, not what is needed. A strategy with priorities and a 
blueprint for how to reliably mitigate adverse solar weather.
    It is essential that state and national leaders have 
adequate plans at hand to determine how best to respond to EMP 
threats as they arrive. As such, it is critical that a scenario 
focused on the EMP threat be included in national planning 
scenarios by the Department of Homeland Security. This is 
precisely the directive included in the Critical Infrastructure 
Protection Act sponsored by my good friend, Congressman Trent 
Franks, who will be here with us today later to discuss the 
importance of the EMP issue. His bill would require DHS to take 
the lead for researching for how to best prepare and protect 
the American citizens from the threat of an EMP event.
    Trent is also the leading sponsor on legislation such as 
the Secure High-Voltage Infrastructure for Electricity from 
Lethal Damage Act, the SHIELD Act, which again, seeks to 
strengthen America's hand against an EMP attack.
    I look forward to hearing Trent's thoughts on this issue 
when he's able to come as well as our other witnesses because 
this is an important issue and there are things our government 
can do to address it right now. And with that, I recognize the 
ranking member, the gentleman from Massachusetts for 5 minutes.
    Mr. Lynch. Thank you, Mr. Chairman. I'd like to thank you 
and also Chairwoman Lummis for holding the hearing, this 
hearing to examine our state of preparedness against the threat 
of a Electromagnetic Pulse Event, also known as a EMP.
    As well, I would like to thank our colleague, Mr. Franks of 
Arizona, who will, as you say, join us shortly and also, our 
other witnesses on the panel today for helping us with our 
work.
    As set forth in President Obama's 2015 national security 
strategy, a comprehensive national security agenda must 
prioritize efforts to address the top strategic risk to the 
U.S. interests, including the possibility of a catastrophic 
attack on U.S. critical infrastructure.
    Similarly, the strategic plan developed by the Department 
of Homeland Security provides that we must enhance security for 
our Nation's critical infrastructure against the threat of a 
terrorist attack by identifying key vulnerabilities and 
addressing them through the implementation of appropriate 
technology.
    In support of our shared responsibility to protect America 
against attack, we must make every effort to examine the extent 
of potential threats such as an electromagnetic pulse event to 
our homeland security. Now, this oversight is even more 
critical, given that the current budgetary climate requires 
Congress to make very difficult choices in determining Federal 
agency spending.
    Not only is the Federal Government still operating under 
sequestration, but unfortunately, Congress recently passed a 
budget blueprint that contemplates cutting nondefense spending, 
including our Homeland Security budget that could be helpful on 
this issue by nearly $500 billion below sequestration level 
spending caps.
    While government officials, scientists and other experts 
may disagree on the imminence of Electromagnetic Pulse event, 
the EMP Commission established by Congress in 2001 to assess 
the threat of an EMP attack reported that our national electric 
grid and other U.S. Critical infrastructure could be 
significantly disrupted by a sudden and high-intensity energy 
field burst. Now as the chairman noted, this could be large in 
scale and produced by nuclear explosion, it could also be 
created through the use of batteries, reactive chemicals and 
other nonnuclear devices, or be the product of a natural 
magnetic storm.
    According to the Commission's 2008 report, ``Because of the 
ubiquitous dependence of U.S. Society on electrical power 
systems, its vulnerability to an EMP attack, coupled with the 
EMP's particular damage mechanisms creates the possibility of a 
long-term catastrophic consequence.'' A 2012 research paper 
prepared by a Fire Department in my congressional district--and 
I'd like to ask unanimous consent to submit the report by 
Deputy Chief Michael K. Laracy, Sr., from the wonderful town of 
Walpole, Massachusetts, he's the deputy fire chief there. The 
title is ``Potential Impacts of Electromagnetic Pulse Attacks 
on Fire and EMS Delivery Services for the Walpole Fire 
Department.''
    Mr. DeSantis. Without objection, so ordered.
    Mr. Lynch. Thank you. In response to such concerns, the 
House passed H.R. 3410, the Critical Infrastructure Protection 
Act, by a voice vote at the end of last year. This bill 
introduced by our friend, Mr. Franks from Arizona, sought to 
require the Department of Homeland Security to include the EMP 
threat in its national planning scenario.
    While the bill did not pass the Senate, DHS has indicated 
that the threat of an EMP attack is very much on its radar 
during recent congressional testimony. Ms. Suzanne Spaulding, 
the Under Secretary for the National Protection and Programs, 
indicated that the DHS is currently partnering with private 
sector entities in the electronic sector to determine how best 
to address the EMP threat. So I look forward to discussing the 
issue with our witnesses in order to examine what additional 
steps we might take in order to better safeguard our national 
electric grid and other critical infrastructure. Thank you, Mr. 
Chairman and I yield back the balance of my time.
    Mr. DeSantis. I thank the gentleman from Massachusetts. I 
ask unanimous consent that enter into the record a letter from 
Dr. William Graham who is chairman of the 2008 EMP Commission, 
a letter from Dr. William Radasky, president of Metatech 
Corporation and leading EMP expert for more than 50 years and a 
letter, fax sheet and cost estimate model from Thomas Popik, 
chairman of the Foundation for Resilient Societies. Without 
objection so ordered.
    Mr. DeSantis. I now recognize the chairwoman of the Natural 
Resources Subcommittee, Mrs. Lummis, for 5 minutes.
    Mrs. Lummis. Thank you, Chairman DeSantis for spearheading 
this hearing. And I also want to thank ranking member, Ranking 
Member Lynch, thanks for your participation and involvement in 
this hearing to examine the important issue of electrical grid 
preparedness in the event of an electromagnetic pulse caused by 
an attack or a solar storm hitting the Earth.
    The threat to the grid infrastructure is real and the 
potential for devastating impacts needs to be examined. Solar 
flares have resulted in numerous incidents; the Carrington 
event of 1859, which at the time, only affected telegraph 
systems. To be honest, I don't remember the Carrington event 
personally, I was a mere child at the time. That was a little 
joke. But I do remember the 1989 geomagnetic storm that 
disrupted radio signals and satellite damage and knocked out 
the power grid in Quebec. The grid is a critical piece of 
national infrastructure that contributes to the most basic 
daily needs of Americans, as well as business and government.
    Given the threat presented to this critical infrastructure, 
I agree with Chairman DeSantis that the Federal Government 
needs to take the EMP threat seriously by including it in DHS 
national planning scenario. That's why I support Congressman 
Trent Franks' Critical Infrastructure Protection Act. This 
important bill takes a step forward towards protecting our grid 
against an EMP threat. I note that it passed the House last 
Congress, and I appreciate all the hard work that Congressman 
Trent Franks has done on this issue.
    The Federal Government needs to follow the lead of State-
based utilities and harden the grid against an EMP threat. As 
we will hear today, the entirety of the Nation's grid is not 
prepared to deal with a variety of threats. It is important 
that the Federal Government realize this and takes the 
necessary steps to protect the grid. I welcome the testimony of 
our witnesses today. I look forward to hearing more about what 
our country needs to do to protect against the threats of EMPs. 
Mr. Chairman, thank you, I yield back.
    Mr. DeSantis. The gentlelady yields back. We will now 
recognize our panel of witnesses. I'm pleased to welcome Dr. 
George Baker, Professor Emeritus at James Madison University 
and CEO of BAYCOR; Dr. Peter Vincent Pry, executive director of 
the Task Force on National and Homeland Security; and Mr. Mike 
Caruso, Director of Government and Specialty Business 
Development at ETS-Lindgren. Welcome all.
    Pursuant to committee rules, witnesses will be sworn in 
before they testify. So if you guys can rise an raise your 
right-hand side.
    Do you solemnly swear or affirm that the testimony that you 
are about to give will be the truth, the whole truth, and 
nothing but the truth, so help you God?
    Let the record reflect that all witnesses answered in the 
affirmative. Thank you and please be seated.
    In order to allow time for discussion, please limit your 
testimony to 5 minutes and you'll see the blinking lights in 
front of you. When it hits red, that's when you've hit 5 
minutes. Your entire written statement will be made a part of 
the record. And with that, Dr. Baker, you are up for 5 minutes.

                       WITNESS STATEMENTS

                   STATEMENT OF GEORGE BAKER

    Mr. Baker. My thanks to Chairman DeSantis and Chairman 
Lummis, ranking members and committees members for this 
opportunity to share my concerns about EMP. My name is George 
Baker, and I've spent most of my professional career protecting 
the U.S. military from EMP. At the Defense Threat Reduction 
Agency, I manage the development of the military standards used 
to protect the Department of Defense systems. As a retired 
professor, James Madison University and DOD consultant, I now 
perform EMP vulnerability assessments of key government 
facilities.
    The congressional EMP Commission on which I served as 
principal staff made a compelling case for protecting critical 
infrastructure against nuclear EMP and solar storm geomagnetic 
disturbances, I will also refer to that as GMD. Among potential 
disasters, EMP and GMD are particularly challenging because the 
effects can be continental in scale. EMP and GMD disasters are 
preventable, that's my main point today, they are preventable. 
We have the engineering, know-how and tools, what is missing is 
resolve.
    I see three reasons why we are not making progress at 
present on these threats and I'll address these in the rest of 
my talk. The first is there are many misconceptions about EMP 
and GMD threats. I'll look at four of those. The first 
misconception is that only major nuclear powers, such as Russia 
and China with high-yield thermonuclear devices could 
effectively execute an EMP attack. In fact, low yield devices 
obtained by emerging nuclear powers such as North Korea and 
Iran can produce catastrophic EMP effects.
    Misconception two, that a nuclear EMP attack would burn out 
every exposed electronic system. In fact, based on government 
tests, we know that smaller self-contained, self-powered 
systems such as vehicles, handheld radios, disconnected 
portable generators are often not affected.
    Misconception three, EMP effects on critical infrastructure 
will be limited to nonsevere, nuisance-type affects. In fact, 
wide area failure of just a few systems, could cause cascading 
infrastructure collapse, in highly interconnected networks. One 
example is the 2003 electric blackout of the northeast was 
precipitated by a single high-voltage line touching a tree, and 
then proceeded to cascade to the entire northeast.
    So, when you extend this concept to a wide area of failures 
and infrastructure networks, including the Internet, you can 
see that EMP is an existential threat that we must take very 
seriously.
    Fourth and final misconception I'll address, that is, to 
protect all other infrastructure against EMP would cost a large 
fraction of the U.S. GNP. In fact, protecting the electric grid 
and communication networks alone would provide substantial 
benefit and be cost effective.
    A recent cost study by the Foundation for Resilient Society 
shows that significant EMP protection could be achieved for an 
investment in the range of $10 to $30 billion. The second 
reason we aren't making progress is the stakeholders are in a 
state of denial. Concerned about cost makes stakeholders, the 
government and the private sector reluctant to admit EMP 
vulnerabilities. Actions to date have been limited and 
ineffective. An example is the joint effort of the Federal 
Energy Regulatory Commission, that is, FERC, and the North 
American Electric Reliability Corporation, that is NERC, to set 
reliability standards for wide area electromagnetic impacts on 
the electric grid.
    The NERC-developed and FERC-approved standards that we have 
exclude nuclear EMP, despite the opportunity to protect against 
both GMD and EMP using the same equipment. NERC standards rely 
on operational procedures that require no physical protection 
of the electric grid. The largest measured storms are a factor 
of 10 higher than their benchmark for protection. A sceptic 
might suspect that NERC's main objective was to avert liability 
rather than to protect the American public.
    The third reason we aren't making progress is there is no 
one in charge. There's no single point of responsibility to 
develop an implement a national protection plan. When I ask 
NERC officials about EMP protection, they informed me we don't 
do EMP, that's DOD's responsibility. The Department of Defense 
tells me, EMP protection for civilian infrastructure is DHS's 
responsibility. And then when I talk to DHS, I get answers that 
the protection should be done by the Department of Energy, 
since they are the infrastructure's sector-specific agency. So 
we have EMP and GMD protection as finger-pointing exercises at 
present.
    In closing, I have the following recommendation for future 
progress, the DOD experience with EMP protection has given us 
the necessary engineering tools, but what we need is the help 
of your committee to get government to act. First, we need a 
designated executive authority. The DHS and DOD both are likely 
candidates. The first order of business would be a national 
EMP, GMD protection plan and a set of planning scenarios. 
Second, let us budget for a national program to check the 
electric grid, including essential supporting infrastructures 
used for fuel supply and communication. And third, Congress 
should recognize that the regulatory apparatus conceived in the 
Energy Policy Act of 2005 is not working. Establishing a new 
independent commission, solely focused on electric grid 
reliability would be very helpful, a commission with the power 
to issue and enforce regulations on its own similar to the 
Nuclear Regulatory Commission.
    The present FERC/NERC arrangement has proved ineffective. 
Thank you for this opportunity to present my concerns and 
recommendations, which are more fully explained in my written 
testimony and I look forward to your questions.
    [The prepared statement of Mr. Baker follows:]
   
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
   
   
    
    Mr. DeSantis. Thank you, Dr. Baker.
    The chair now recognizes Dr. Pry for 5 minutes, you are up.

                 STATEMENT OF PETER VINCENT PRY

    Mr. Pry. Thank you for the opportunity to address the 
subcommittees today. First, what I think we must understand 
about the threat is that it is not merely theoretical, it is a 
real threat. In the military doctrines of Russia, China, North 
Korea and Iran, they plan to make a nuclear EMP attack against 
the United States. We have seen North Korea and Iran exercise 
this, including by launching ballistic missiles off of a 
freighter at sea, which would enable the possibility of an 
anonymous EMP attack. During the nuclear crisis we had with 
North Korea in 2013, it was the worst nuclear crisis we ever 
had with Kim Jong Un was threatening to make nuclear missile 
strikes against the United States in the aftermath of their 
third illegal nuclear test.
    In the midst of that crisis North Korea orbited a satellite 
over the south pole that passed over the territory of the 
United States on the optimum trajectory and altitude to both 
evade our national missile defenses, and, had that been a 
nuclear warhead, to place an EMP field over all 48 contiguous 
United States that would have had catastrophic consequences. 
That was the KSM 3 satellite; that satellite stills passes over 
us, it's sill in orbit and passes over us with regularity.
    Another thing that must be understood is that EMP is part 
of a--a larger part of their military doctrine that they 
consider a revolution in military affairs. That, basically, is 
a combined arms operation with cyber attacks, physical 
sabotage, nonnuclear EMP weapons, and nuclear EMP weapons is 
the most decisive instrument all used together and coordinated 
in a formula new Blitzkrieg, except one that's waged in 
cyberspace to basically bring a civilization down to its knees 
so that a failed state like an Iran or North Korea could 
theoretically defeat and destroy a highly advanced society like 
our own.
    This would be unprecedented in history where you would have 
a situation where a state like Iran or North Korea or even a 
sub national actor like a terrorist group if they could get 
hold of that one nuclear bomb and do it in combination with 
cyber attacks and physical sabotage to crash our critical 
infrastructures, especially the electric grid and basically 
destroy our civilization. But they write about it; they 
exercise it; they are serious about it. And we actually see 
this being practiced in real life in some countries back in 
June of last year while ISIS was sweeping over northern Iraq, 
al Qaeda and the Arabian Peninsula blacked out the entire 
electric grid in the state of Yemen, put 18 cities and 24 
million people into the dark. That is the first time in history 
that a terrorist group has blacked out a whole country. And it 
so destabilized Yemen that look what happened to them. They 
have gone from being a U.S. ally, so now we have lost one of 
our most important allies in the Middle East already to this 
kind of an attack.
    This year, in January 25 of this year, a terrorist group 
blacked out 80 percent of the grid in Turkey. We don't know 
what they are up to in doing that--excuse me, in Pakistan, but 
Pakistan is a nuclear weapons State. So the idea that 80 
percent of the grid could be blocked out in Pakistan for 
purposes unknown is extremely disturbing.
    Is this a precursor to try to get their hands on nuclear 
weapons in Pakistan? About a week before the Washington 
blackout happened, Turkey was put--80 percent of Turkey was put 
into blackout by a cyber attack by Iran. These were not EMP 
attacks, but they are experiments with parts of this doctrine 
that they have that would combine all these things and we have 
seen in the case of North Korea and Iran experiments with the 
nuclear EMP option as well.
    Now, so the threat is real. As George Baker has testified, 
however, there is really no excuse for us to be vulnerable to 
this. We know how to fix the problem, and one of the things the 
EMP Commission recommended was, if you can protect against the 
worst threat, which is the nuclear EMP attack, if you can 
protect against that, it will mitigate all the others: Cyber 
attacks, physical sabotage, nonnuclear EMP weapons and GMD as 
well. So we know how to fix the problem.
    What to do? I endorse everything that Dr. Baker said. We 
need to pass the Critical Infrastructure Protection Act. The 
importance of having a national planning scenario focused on 
EMP cannot be understated.
    Right now, despite what DHS may be telling you, if it is 
not in the national planning scenarios, the threat doesn't 
exist for State and local emergency planners, or for Federal 
emergency planners, too. People who want do something about 
this threat at the State level when they apply for funding, for 
example, from DHS, can't get it because EMP is not among the 
national planning scenarios. So that would put it on the radar 
screen for Federal, State and local emergency planners and 
would be an enormous step forward toward solving the problem.
    Next, we need to bring back the congressional EMP 
Commission, which is actually under consideration right now in 
the Defense Authorization bill being negotiated with the 
Senate. The greatest progress we made in this country was when 
the EMP Commission was around and, you know, with the absence 
of the Commission, well we have seen that no progress has been 
made. If we can bring back the EMP Commission, I expect that 
that would reintroduce, we would have a voice in the 
governmental level part of Congress that could aggressively 
promote EMP preparedness, and that is what we need to do.
    And last, the NERC/FERC relationship, I completely agree 
with Dr. Baker. It's extremely dysfunctional, it doesn't work. 
It needs to be reformed. I'm not sure that you can actually 
reform those institutions. I would actually advocate abolishing 
both FERC and NERC and starting with something else, a 
different kind of institution, something similar to the Nuclear 
Regulatory Commission that has real regulatory power, and that 
understands that its stakeholder, its customer is not the 
electric power industry first, but it's the American people 
first. And the responsibility is first not to the profits of 
the utilities, but it's to America's national security. Thank 
you for hearing me out.
    [The prepared statement of Mr. Pry follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
      
    Mr. DeSantis. Thank you. Mr. Caruso, thank you for coming 
you're recognized for 5 minutes.


                  STATEMENT OF MICHAEL CARUSO

    Mr. Caruso. Thank you. I'd like to thank Chairman DeSantis, 
Chairman Lummis, ranking members and committee members for this 
opportunity to testify. I consider it an honor and a privilege 
to be here today to share my 32 years of experience in the 
practical side of protecting against EMP events.
    EMP hardening has long been considered very expensive and 
an illusive art known to few. The current guidance on EMP 
protection is found in the MIL Standard 188-125 that is not 
necessarily appropriate for every application when considering 
the critical infrastructure.
    EMP hardening of the critical infrastructure would require 
a less stringent application of the MIL Standard 188-125. 
Government, public, and private critical infrastructure 
facilities and services are becoming increasingly 
interdependent, as we've seen with many of the companies that 
I've talked to over the past 3 years.
    In addition to the interdependency of those services, we 
see an increasingly dependence on the very vulnerable electric 
grid and electric power system. To date, little has been done 
to harden the electric power system and the 16 segments of 
critical infrastructure as designated by the Department of 
Homeland Security.
    Currently, 18 States have ongoing initiatives to require 
the electric utilities to at least address the protection of 
the electrical grid from the dangers of a EMP or solar storm. 
Electromagnetic energy from an EMP can disrupt a supervisory 
and control data acquisition systems, or SCADA systems, which 
the electric grid heavily relies.
    I recently testified in the Texas State House in support of 
bills introduced for EMP protection of the critical 
infrastructure. Texas is one of the States aggressively 
pursuing passage of EMP legislation, including an appropriation 
to get critical infrastructure segments started in the overall 
evaluation of their vulnerability.
    In 2014, ETS-Lindgren, the company for which I work, was 
part of a multidisciplinary team that successfully completed 
construction of the very first large private sector SCADA 
facility in the United States that includes EMP protection. The 
building was a 2-story, 105 square-foot building, of which 
44,000 square feet were EMP-protected, that included generators 
and cooling systems. The total project cost was about $100 
million and the approximate EMP protection part of that was 
about $8 million. So if we're looking at it, about 8 percent of 
the overall budget. If we looked at that cost spread over the 2 
million customers that that building serves, we're looking at 
less than a dollar per year, per customer spread out over 5 
years.
    While the optimum scenario is to protect a brand new 
control building, retrofitting is possible. I've spoken with 
quite a few electric utilities about retrofitting their control 
buildings. If we're looking at the existing facilities, they 
are tremendously vulnerable because the equipment was never 
intended to be EMP-protected, nor were the support systems ever 
laid out properly to be protected. An estimated rough order of 
magnitude for protecting a similar facility as the 44,000 
square feet that we talked about in the new building would be 
approximately $16 million. And there again, when you take a 
look at that and spread that out over 5 years, it's less than 
$2 per customer, based on the 2 million customer service area.
    In my opinion, EMP protection of the electric utilities is 
the primary concern due to the survival and dependency we have 
on electrical power. Some proactive, forward-thinking utilities 
have either instituted EMP protection programs, or have at 
least begun to consider implementing them. However, the balance 
of the critical infrastructure segment, such as financial, 
wastewater, drinking water, transportation, food distribution, 
health care emergency services, have really not ever been 
addressed at all. It is my sincere belief that we as a Nation 
will some day face an EMP attack. I respectfully urge you to 
consider and pass legislation to address the EMP threat that I 
belive has been overlooked for far too long.
    Chairman DeSantis, Chairman Lummis, ranking members, 
committee members, I thank you again for this opportunity to 
present my thoughts, and I would be very happy to answer any 
questions that you have of me. Thank you to your time.
    [The prepared statement of Mr. Caruso follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. DeSantis. I thank the witnesses for your testimony. The 
chair now recognizes himself for questions for 5 minutes.
    Dr. Baker you talked in your written testimony about the 
critical importance of the electric grid. So an EMP attack that 
would fry the electric grid, can you just explain the 
consequences to somebody who maybe has never heard of an EMP 
before today's hearing, what practical effect would that have 
on American society?
    Mr. Baker. The electric grid is the foundation for all 
other infrastructures. DHS has listed 16 critical 
infrastructure sectors, and the one sector that every--depends, 
you know, that drives everything else is the electric power. 
The other thing about the electric power, it not only is the 
most critical, arguably the most critical infrastructure, it is 
arguably the most vulnerable to EMP because you measure EMP in 
volts per meter, so the longer the line, the larger the voltage 
it will be induced on the line.
    So it's ironic that our most critical infrastructure is 
also the most vulnerable, and that's why we have to be so 
serious about protecting the grid. But without the electric 
grid, basic life services: The ability to pump drinking water, 
the ability to heat and cool our homes----
    Mr. DeSantis. Take our money from an ATM, would you be able 
to do that?
    Mr. Baker. Yeah, that's right. You would--you would--our 
financial sector is also way up there on in terms of EMP 
vulnerability and risk factor mainly because it depends upon 
the electric grid and the on call communications as well. So 
essentially it would be--we've seen sort of a microcosm of what 
could happen in the northeast blackout and the anarchy that 
resulted there, but that--in Britain, I've been to some EMP 
meetings in Britain, where they actually are protecting their 
grid--but their rule of thumb is it's 3 days to total anarchy, 
I heard this member of Parliament say--once you lose the 
electricity.
    Mr. DeSantis. And in terms of the some of the casualties, 
because people have surmised men, terrorists, if they can get 
their hands on a nuclear device, detonate an American city, 
obviously that would be very devastating. And someone said, 
yeah, that would be, but their best bet to do the most damage 
would be to try to launch it over the country and explode it 
and create an EMP. And the casualty estimates I've seen are 
really, really high if they were able to cripple our entire 
electrical grid. Is that your understanding that you are 
talking about potentially millions of people?
    Mr. Baker. That's my understanding. Even though you don't 
get direct effects on biological, humans--the long-term term 
effects without the electric power grid, we're talking about 
certainly within a year, you would lose at least half the 
American population. I have seen estimates as high as 90 
percent of the American population would be at risk over a 
projected 1-year period.
    Mr. DeSantis. So given that the consequences are 
potentially very dire, but also given that, I think, as all the 
witnesses have said, there are certainly things we could do 
very easily, why haven't we done enough, in your opinion?
    Mr. Baker. One of the problems is that the liabilities, the 
public companies are reluctant to admit vulnerabilities, 
because if something bad were to happen, they would be liable, 
and I think that's a big problem. And just the cost, the wide-
area effects, we get into these hand-wringing stances where 
people--they don't know where to begin so they haven't. And 
what we're trying to do is lay out, you know, a well-ordered, 
incremental approach where to get us beyond the hand-wringing.
    Mr. DeSantis. Mr. Caruso, you've been involved in this 
field and have done work hardening critical infrastructure 
against an EMP attack. So help us understand what is involved 
when you actually try to harden a facility or a line?
    Mr. Caruso. Certainly. In addition to the critical 
infrastructure, I've been involved in hardening military and 
government facilities for the 32 years in this business. And 
essentially, what's required to harden a facility is to create 
an electromagnetic shield, a 6-sided electromagnetic shield 
around the equipment that's intended to be protected.
    Mr. DeSantis. As of right now, in your judgment, and based 
on your experience, what percentage of the electrical grid is 
prepared for an EMP threat?
    Mr. Caruso. Currently, there's only one control center in 
the entire country that I'm aware of that is protected.
    Mr. DeSantis. And which one is that?
    Mr. Caruso. I'm not allowed to say, because of non-
disclosure agreements that I'm under.
    Mr. DeSantis. Understood. My time has expired. Thanks for 
answering the questions, and I now recognize the ranking member 
of the full committee--the subcommittee on National Security, 
Mr. Lynch, for 5 minutes.
    Mr. Lynch. Thank you, Mr. Chairman. So what we're saying 
here is that because of the interconnectivity of our society 
today, the great reliance and connectivity to the Internet, so 
much of every aspect of our lives is wired now, that that fact 
will actually amplify the impact of a EMP event. Is that 
basically what you're saying, Mr. Baker--Dr. Baker? Excuse me.
    Mr. Baker. That's right.
    Mr. Lynch. All right. Now, for countermeasures, I 
understand, and I don't question the level of disruption that 
would occur. And I guess the imminence of this is debatable, 
but there is no debate above the disruption that would result 
if one of these EMPs occurred. The countermeasures that have 
been talked about, the folks at CRS that serve Congress, the 
Congressional Research Service, mentioned a couple of 
countermeasures. One was this Faraday Cage protection, which I 
guess is some kind of a cladding. Can you talk about that for a 
bit?
    Mr. Baker. I can. Mike Caruso just mentioned the idea of a 
6-sided shield. You have a six-sided metal enclosure, that's 
referred to in electrical engineering as a Faraday Cage.
    Mr. Lynch. Okay. Mr. Caruso, do you want to go into that a 
little bit more?
    Mr. Caruso. Certainly. The six-sided metal shield has to be 
constructed so it basically has no openings in it except those 
that are absolutely necessary to have. And all of those 
openings are technically considered to be points of entry. So 
you start out by building a six-sided metal box with no 
openings, and then you start adding openings for things like 
the electrical power, communications and air exchanges and 
cooling systems. And all of those points of entries are handled 
in a very, very special and particular way in order to ensure 
that you are attenuating any EMP signal that might be broadcast 
in the atmosphere, but also any signals that are being brought 
in, conducted on the electrical lines or communication lines.
    Mr. Lynch. Sort of like a surge protector? That type of----
    Mr. Caruso. Exactly. A surge protector on steroids, if you 
would.
    Mr. Lynch. Yeah. Now, what about the other countermeasure 
that I'm not sure if it incorporates the Faraday Cage 
protection, these portable, or mobile units that, I guess, some 
of the contractors for Microsoft and, I guess, some of the 
other computer outfits have come up with, sort of an off-the-
rack type of system where they can house all of these servers 
in the event that you have an event. Is that one and the same 
or are these two different strategies?
    Mr. Caruso. It's one and the same. In terms of technology, 
the portable data centers, if you will, the EMP-protected data 
centers are essentially six-sided Faraday cages with all the 
points of entry addressed, and sometimes they get actually 
interfaced with the fixed asset that might be inside of a 
building. So they become a supplement to what's going on in the 
building. These same shelters sometimes hold backup generator 
systems or backup cooling systems to act as protection against 
the EMP for those systems as well.
    Mr. Lynch. Okay. So the last time we had a talk about this, 
the study was done in 2008, I think, then there were 16 
recommendations. Is there anything different that we're doing 
now than what was going on at that point, talking about 
Congress?
    Mr. Baker. The only substantive response to the EMP 
recommendations has been within the Department of Defense, 
where they are actually providing an annual report to Congress 
on the steps they are taking to meet the EMP Commission 
recommendations. But as far as the civilian infrastructure, I'm 
not aware of any progress.
    Mr. Lynch. Dr. Pry, I don't want you to get off the hook 
without a question. The general recommendation then would be to 
adopt some of these countermeasures for infrastructure that we 
identify as being critical, whether it's civilian critical 
infrastructure, or military infrastructure; is that right?
    Mr. Pry. Yeah, that's right. You know, for example, there 
are 2,000 extra high voltage transformers that are basically 
the technological foundation of our electronic civilization, 
you know, most people don't even know that. These things are 
vulnerable to EMP. They should be protected. You know, they are 
very hard--we don't even make them in this country anymore. But 
that's an example of--the Commission had a rather long list of 
recommendations, basically a plan that could be implemented to 
protect the civilian critical infrastructure at affordable 
cost. It's not hard to do, the technology isn't the problem, 
the money isn't the problem, it doesn't cost that much to do 
it, it's the politics that has been the problem.
    As George has said, nobody has responsibility for doing 
this, those who would think would have responsibility, the 
Department of Defense, for example. You know, when you talk 
about it, they have no jurisdiction over the civilian critical 
infrastructure. And they will say, well, this could be caused 
by a geomagnetic storm and that's not our department. We are 
dealing with foreign threats, so it is the Department of 
Homeland Security's job. DHS will say, well, a nuclear weapon, 
that's the DOD's job, so nobody has been in charge.
    And then where it counts the most is we have this very 
dysfunctional relationship between the NERC, the North American 
Electric Liability Corporation that represents the 3,000 
utilities that is supposed to be--partner with U.S. FERC in 
providing for grid security. But the political reality is that 
that relationship is dysfunctional and it has not resulted in 
not only in increasing our security where EMP is concerned, but 
even against tree branch problems, for instance. It took NERC a 
decade to come up with a vegetation management plan to better 
manage tree branches so that we won't have a repeat of the 
great Northeast Blackout of 2003. They are falling down on job 
on very pedestrians threats, let alone cyber threats and EMP 
attacks and the like. It's just the system isn't working, and 
that needs to be fixed by somebody.
    Mr. Lynch. Thank you. I assume my time has expired. I yield 
back.
    Mr. DeSantis. The gentleman yields back. The chair now 
recognizes the gentlewoman from Wyoming, the chairman of 
Natural Resources Subcommittee for 5 minutes.
    Mrs. Lummis. Thank you, Mr. Chairman. I'm a bit of a novice 
to this subject, so I'm going to ask you some general 
questions, feel free to take them wherever you choose. You 
know, over the weekend I got a little taste of this. I woke up 
Sunday morning in my country home, in Wyoming, without 
electricity. I had no water because in a rural area I'm on an 
electric pump to pump my well water. So the inconveniences 
associated to being without electricity were apparent from the 
minute my eyes opened.
    As it turned out, it was just something, I think they 
called it a bayonet which is a very large fuse that they just 
came and replaced. And believe it or not, they came on Sunday 
morning and I was back up and running, and happily so. But when 
you think about that on the scale that we're talking about, it 
really does create immediate global problems, especially in 
this country.
    So my first question, Mr. Caruso, what do these things 
cost, these shields that protect our infrastructure?
    Mr. Caruso. The shield that I gave an example of in my 
testimony was approximately $182 per square foot to put into 
place. So if you look at a floor plan of a building and look at 
the square footage, again, about $182 a square foot on top of 
the building cost itself.
    Mrs. Lummis. So it's not chump change.
    Mr. Caruso. It's not chump change, but it's not 
insurmountable either.
    Mrs. Lummis. My next question is for all of you. I am going 
to direct to Dr. Pry first, but then I'd like to ask our other 
two witnesses to weigh in. This is about your concern that the 
relationship between NERC and FERC is dysfunctional. You 
mention the possibility of doing away with both. So if you were 
dictator for a day, and you could do exactly that, either 
combine NERC and FERC or do away with them and replace them 
with something else that would solve the dysfunction you've 
identified, as well as address this electromagnetic pulse issue 
responsibly, what would that look like?
    Mr. Pry. That would look like the kind of relationship that 
the Federal Aviation Administration has with the air line 
industry. What I think that isn't understood is that the 
electric power industry is the only critical infrastructure 
that still operates basically in something that's close to a 
19th century regulatory environment. The Federal Aviation 
Administration has the power and has independent inspectors. If 
they find metal fatigue in the wings of an airline, they can 
ground that whole fleet and order the air line industry, you 
are not going to fly those planes until they are fixed.
    When there is a disaster and an airplane crashes, the 
industry doesn't get to investigate and figure out what went 
wrong, not by themselves. It's the Federal Aviation 
Administration that drags those things into a hangar. And why 
do we do that? Because we want an objective actor whose first 
priority is public safety, because hundreds of lives are at 
stake when airplanes fly and so we don't--you know, we don't 
take lightly, you know, the lives of the American people when 
it comes to that. If we go to the Food and Drug Administration 
or any other industry, I would like that same kind of 
regulatory relationship with the electric power industry.
    Let me describe to you a little bit about what the current 
regulatory environment is like, because it's not really what we 
would consider a regulatory environment. The U.S. FERC, for 
example, does not have the power to tell NERC, that is, the 
industry, what they shall do to protect the grid. It can order 
them to come up with a plan and then NERC can take as much time 
as it likes to come up with a plan or a proposed plan. And then 
if the U.S. FERC has objections that plan, the whole plan has 
to be scrapped, and the process starts all over again.
    That's how it took 10 years to get a plan for vegetation 
management, you know, so we wouldn't have a repeat of the great 
Northeast Blackout of 2003. Industry takes its time dragging 
its feet and can use the process, you know, to basically escape 
doing what it's supposed to do. The NERC is supposed to partner 
with the U.S. FERC in providing for the security of the 
American people, but it doesn't. And I don't think combining 
these or keeping the same--I mean, there are some good people 
in these institutions, but George and I have served, for 
example, on the NERC's Geomagnetic Disturbance Task Force, and 
we have actually seen them engage in junk science, dishonest 
practices, you know, in terms of the science to try to mislead 
people.
    In my written testimony, I describe a very disturbing 
example of where the NERC came up with a hollow standard for 
the natural EMP created by the sun saying, okay--they were 
dragged, kicking and streaming by the way and resisted for 
years saying that oh, the threat from the sun doesn't really 
affect the electric grid, which was completely untrue. 
Eventually they were forced to come up with a standard, the 
standard is so low, that it doesn't provide any real 
protection.
    Mrs. Lummis. Dr. Pry, my time has expired, but I'm hoping 
to follow up with all three of you on this issue in a second 
round of questioning. Thank you all very much.
    Mr. Chairman, I yield back.
    Mr. DeSantis. The gentlelady yields back. I ask unanimous 
consent to enter into the record a statement of Ms. Lawrence, 
who is the ranking member on the Subcommittee on Interior. 
Without objection, that will be so ordered.
    Mr. DeSantis. At this point, I would like to recognize Mrs. 
Lawrence for 5 minutes for her questions.
    Mrs. Lawrence. Thank you, Mr. Chairman. We--this issue is 
one of great importance to me and to our country. The 
congressional EMP Commission issued a report in 2008 
identifying 16 segments of our infrastructure that could suffer 
severe damage if not protected. Today, 7 years later, the 
testimony continues to echo those concerns. I'm curious today, 
Mr. Caruso, has anything changed since this last report 
regarding the protection of the grid?
    Mr. Caruso. I don't believe anything significant has 
changed. What we have seen is that many private industries that 
make up the critical infrastructure have taken it upon 
themselves just as doing good business to do EMP protection. I 
have worked with several financial institutions, including 
insurance companies. I've worked with electric utilities and 
have done some work counseling, the gas and electric industry 
as well, but other than that, nothing real significant has 
happened.
    Mrs. Lawrence. To follow up on your statement, there has 
been some independent efforts being made in this direction. Are 
we monitoring that as a Federal Government if we start 
implementing the--taking the steps that we should, would we 
have a different system that is being used now, or are we just 
going to provide oversight to these individual companies? What 
is the plan that you're recommending here?
    Mr. Caruso. My recommendation really falls in line with 
those of Dr. Pry and Dr. Baker in that someone needs to be in 
charge, and especially as it's related to the 16 critical 
infrastructure segments in terms of providing real protection, 
and at least addressing the issue to ask the question what if, 
what happens if we lose the electrical power? What happens if 
we lose the ability to do it? I use--I like to use the example 
of the waste treatment systems. You would not only lose the 
electrical power, but the control systems that control the 
wastewater filtration and pumping stations throughout an area. 
If that goes down in a major city, you have 2 or 3 days before 
the city is just on its knees.
    Mrs. Lawrence. My question is to Dr. Baker. As we look at 
the need, we heard your recommendations, 2008 was the last 
report. Will we have to initiate a new commission and a new 
report so it would be relevant, or do you feel strongly that 
the information we have now is enough to move forward with 
starting our plan?
    Mr. Baker. I believe that the EMP Commission reports that 
were issued in 2004, 2008 are still operative, and so I would 
say yeah, they are a very good place to start. I don't know 
whether there is anything I can add to those reports. The thing 
that helps us is that--I understand that there's going to be a 
lot of new construction on the electric grid, and that if we 
are able to project and develop some plans that we can actually 
include EMP protection with the new build-out. So there might 
be some maybe augmentation of the EMP Commission 
recommendations.
    Mrs. Lawrence. I do want to say as my time runs out that as 
a mayor, I lived through the power outages that affected the 
Midwest. And when you talk about the threat of lives, hospitals 
that were in my city, individuals stranded on elevators, life 
support systems and oxygen, getting the pumps backed up with 
batteries so that we could continue to ensure that our water 
was properly processed through cleaning water filtration, this 
is a very serious issue. And I appreciate your testimonies 
today, and I know for a fact if we receive such an attack, the 
threat is one that would be significantly dangerous for our 
country and a lot of dangerous people on simple mere traffic 
navigation, everything came to a complete halt. To be able to 
sit in a room in our emergency command center with no power, we 
could not pull up documents of employee records, because it was 
on a computer. So it taught me a lot of how we were dependent 
just from being a mayor and trying to manage through that power 
outage. So I thank you today for your testimony.
    Mr. DeSantis. The gentlelady's time has expired.
    The chair now recognizes the gentleman from Georgia for 5 
minutes for his questions.
    Mr. Hice. Thank you.
    Dr. Pry, what Federal agency do you believe is best suited 
to lead a preparedness effort for this? Is it Homeland 
Security? Is it Energy? Which one is it?
    Mr. Pry. I think the Department of Homeland Security, that 
it naturally falls under their jurisdiction, you know, because 
they're responsible--they're supposed to be responsible for 
critical infrastructure protection in the first place. So I 
think that they're the ones.
    However, DHS and the Department of Defense are also 
supposed to have a cooperative relationship, you know, when it 
comes to providing for homeland security. There's a lot of 
expertise--now, DHS should have the lead, but there's a lot of 
expertise in the Department of Defense. And the Department of 
Defense is also dependent on the civilian critical 
infrastructure.
    Mr. Hice. All right. But, at the end of the day, DHS, you 
believe.
    Mr. Pry. I would say DHS. I'd like----
    Mr. Hice. All right.
    Does DHS currently have anything to deal with the 
scenario--they've got the 15 national planning contingency 
scenarios. Is anything dealing with EMPs a part of those 15 
plans?
    Mr. Pry. No, they're not. And that's part of the problem 
and why we need to pass the Critical Infrastructure Protection 
Act.
    And I would add that there are people--there are people 
within DHS that are standing by, waiting for us to do exactly 
that. The----
    Mr. Hice. All right. So there needs to be--if DHS is 
responsible, DHS then needs some sort of plan. Is there a 
reason there is not a plan, if DHS is responsible?
    Mr. Pry. The--I think the--I don't know what the motive has 
been within the leadership of DHS, because it's been a 
bipartisan failure, you know----
    Mr. Hice. But a failure it is. We don't need to elaborate. 
If DHS is responsible, that is one thing. If DHS is responsible 
and not prepared, that is another issue that certainly needs to 
be addressed.
    Mr. Pry. I'd say they are responsible and not prepared.
    Mr. Hice. Okay. Well, then we have to--that definitely 
needs to be addressed.
    Let me go, Mr. Caruso, to you. Hardening a facility, can 
you elaborate a little bit more on just what that means and 
what it involves?
    Mr. Caruso. Certainly.
    As was mentioned before, we're talking--the scientific term 
is ``Faraday cage.'' And it essentially--we use steel to do 
that. So it encloses the area that's intended to be protected 
in a six-sided steel enclosure. And all of the points of entry 
coming in and, most importantly, the electrical power are 
fitted with filter devices and suppression devices that would 
suppress an EMP coming down the line being conducted in from 
the external power lines.
    In addition to that, the facility shield protects all of 
the equipment inside from the radiated effects of an EMP coming 
down out of the atmosphere. And it needs to also protect the 
backup generators, the cooling systems, and all of the other 
support systems that would support a facility.
    Mr. Hice. Okay. I just have a couple minutes, so that--just 
a general understanding, I appreciate what you just shared.
    Do State governments--and I will just keep this with you, 
Mr. Caruso--do State governments have anything right now to 
protect against EMPs?
    Mr. Caruso. Absolutely nothing.
    Mr. Hice. Nothing. All right. So we are totally vulnerable. 
That includes all 50 States; there is nothing out there?
    Mr. Caruso. Nothing that I'm aware of.
    Mr. Hice. All right. All right. So we have got to address 
this problem because it is totally not addressed anywhere.
    Mr. Caruso. That's correct, except for a handful of private 
industry actors that have taken it upon themselves to protect 
it. The control center that I was speaking of before is an 
electric utility. They took it upon themselves to invest their 
own money to protect their control center.
    Mr. Hice. Okay. Then, real quickly, across the board, and I 
would appreciate an answer real quickly from all three of you. 
This being the case, what steps do Federal entities need to 
take to protect this?
    And, Dr. Baker, I will start with you, just real quickly 
because I know my name is about up.
    Mr. Baker. First, we need a single authority that is in 
charge with the power to develop and enforce requirements.
    Mr. Hice. Okay.
    Mr. Baker. And then I think, you know, of the 16 critical 
infrastructures, if we focused only on the electric power grid, 
that would be well worth it. We should have a program to----
    Mr. Hice. All right.
    Mr. Baker. --protect the grid.
    Mr. Hice. Real quickly, Dr. Pry and Mr. Caruso?
    Mr. Pry. Pass the Critical Infrastructure Protection Act, 
which will require the Department of Homeland Security to add a 
new national planning scenario focused on the EMP threat. All 
State, local, and Federal emergency planning, training, and 
resource allocation is based on those scenarios. That's why 
it's not on the radar screen right now. Bring back the 
congressional EMP commission so you can have an aggressive 
watchdog to make sure that this work gets done.
    And reform the dysfunctional relationship between NERC and 
FERC. I say abolish them and start all over again. Give the job 
to DHS, somebody that's willing to do the job.
    Mr. Hice. Unfortunately, my time has expired, but could Mr. 
Caruso----
    Mr. DeSantis. If you can submit your response----
    Mr. Hice. Thank you.
    Mr. DeSantis. --for the record written, it would be great.
    Mr. Hice. Thank you, Mr. Chairman.
    Mr. DeSantis. And the chair now recognizes the gentleman 
from California, Mr. Lieu, for 5 minutes.
    Mr. Lieu. Thank you. Thank you, Mr. Chair, for holding this 
hearing to inform the public and policymakers about the threat 
of an EMP device.
    I have just some preliminary questions. Let's say an EMP 
device was exploded over the U.S. What is the geographic area 
that it would affect? Is it the size of D.C.? Of Maryland? Of 
Virginia? Smaller? Larger?
    Mr. Baker. An entry-level, you know, low-yield weapon, if 
it's detonated at the optimum altitude, the diameter of the 
effect would be 1,200 miles. So it would be a circle with a 
1,200-mile diameter.
    Mr. Lieu. Okay.
    And then, within that circle--so let's say it fries the 
electrical generators. Does it also destroy the lines 
themselves, or are they still fine?
    Mr. Baker. The----
    Mr. Lieu. The lines that connect houses and businesses to 
the electric grid.
    Mr. Baker. The lines will remain intact. There was some 
Russian experience where some of their lines, they actually had 
damage to the support insulators, where some of their lines 
fell to the ground. But the evidence is that, in most cases, 
the lines would remain intact. It's just what's on the end of 
the line would be affected.
    Mr. Lieu. And then, based on the way our electrical power 
grid is constructed in the U.S., could you take power from 
another part of the country and route it through the affected 
area?
    Mr. Baker. That would depend upon the size of the circular 
diameter. It would be difficult to do that because you're 
looking at areas that are crossing, you know, State boundaries 
and the boundaries of the different power companies. So it 
could be difficult.
    And we don't--the grid control centers--we don't have grid 
control centers in most cases that span that large of an area.
    Mr. Lieu. Okay.
    And I think, Mr. Caruso, you had mentioned a cost to harden 
our critical infrastructure. You said $182 per--per what?
    Mr. Caruso. Per square foot of floor space.
    Mr. Lieu. Okay.
    Mr. Caruso. And that's for doing a facility, not looking at 
the transformers.
    Mr. Lieu. So it's hard for me to understand what that 
means. Can you sort of give me a number? To harden the United 
States to a place you think is sufficient, are we talking about 
$50 million, $50 billion, $500 billion? What is the range here 
so I can understand that?
    Mr. Caruso. I'm sorry, I really don't have that number 
available in my head. I can submit something.
    Mr. Lieu. Sure.
    Or anyone on the panel?
    Mr. Pry. It depends on how much protection you want to buy 
and what your judgment is, okay? It's sort of like asking, 
well, how much will it cost to buy fire protection for my 
house? You know, some plans can be very inexpensive. It can be 
as simple as buying a smoke alarm--okay?--you know, which would 
cost you very little. Others might want to put a fire 
extinguisher in every room and put a sprinkler system in, which 
is going to cost a lot.
    There are--here are some legitimate plans and legitimate 
prices for you to keep in mind--okay?--that can range--John 
Kappenman, who was on our commission, had an idea, a plan, that 
would cost $200 million. And the idea here would be to protect 
the 200 most important extra-high-voltage transformers, the 
ones that service the major metropolitan areas. So John 
wouldn't say that this is adequate, but it will at least give 
you a fighting chance to save millions of people from starving 
to death, you know, because the transformers, at least, would 
be saved.
    The EMP Commission had a plan. It's, you know, right in the 
plan, it's about $2 billion--okay?--that protects all of the 
transformers and generators and is much more ambitious. And, 
you know, that's a much better plan and would give you much 
greater resiliency and confidence in being able to recover the 
society quickly from an EMP.
    George Baker described an even better--a more ambitious 
and, I would say, a better plan that goes beyond that. It sort 
of depends on how much do you want to put into prevention. Just 
like in protecting your house, you know, you can spend more 
money to protect your house and be safer, or you can decide to 
spend less money and be less safe.
    But there are a wide variety of plans, which----
    Mr. Lieu. And----
    Mr. Pry. --industry sometimes misrepresents as being 
contradictory. They're not. You know, it could range from $200 
million up to $20 billion, $30 billion.
    Mr. Lieu. And so, given those options--as you know, a lot 
of electrical utilities are regulated by States or cities. What 
is your view of the Federal Government's role? Why is it we 
don't leave it up, for example, to the Public Utilities 
Commission of California to decide if they want to increase 
fees on ratepayers in order to harden the facilities there?
    In other words--or is it your view we should give DHS 
authority to simply start imposing additional costs on 
ratepayers so we can harden all these facilities?
    Mr. Pry. May I respond?
    Mr. Lieu. Yeah, of course.
    Mr. Pry. Yeah. Well, you know, because this is--ultimately, 
this is a national security--especially if you're talking about 
a nuclear EMP attack or a great geomagnetic storm that could 
cover not just the United States, but if it's a Carrington 
event, you're talking about the entire world being affected by 
this kind of a phenomenon.
    A threat of this scale should be a Federal national 
security responsibility. The States don't normally think of 
themselves as protecting themselves against nuclear terrorist 
attacks, but because of the----
    Mr. Lieu. But they do think about--right?--natural 
disasters. I mean, a massive naturally caused EMP thing would 
be a natural disaster. So, in California, it's not so much the 
Federal Government saying, ``Hey, harden yourself against 
earthquakes.'' It's actually California building codes that do 
that.
    So I'm just sort of curious as to, do you want this 
massive, overreaching Federal plan, or should we leave it to 
States and cities and local control?
    Mr. Pry. I personally don't think it should be left to 
States and cities. But, however, you're getting your wish. 
Because of the vacuum that's been created by the lack of 
Federal leadership on this issue, the States are taking the 
initiative because they have to.
    Next week, I'm going up to Maine because Maine has passed a 
bill to protect its electric grid because the Feds haven't done 
anything. Virginia has passed a bill. Arizona has passed a bill 
to protect its people. Florida has established a cyber and EMP 
legislative working group because there is no leadership, no 
help coming from Washington.
    And so the States are being made aware. They don't even 
know about this threat, most of them, but as they become aware 
of this threat and they realize that the Federal Government 
isn't doing anything, they are stepping up to the plate to 
protect their people.
    I don't think that that's--I was originally trained as a 
historian, and I find that rather disturbing, the fact that the 
States have to do this. You know, in the--one of the signs of 
the decline and fall of the Roman Empire was the rise of walled 
cities, because Rome would no longer--could no longer defend 
its cities against the Barbarians. So the states had to start 
providing for their own--I mean, the cities had to start 
providing for their own security.
    I don't think that's the way our system is supposed to 
work. You know, when it comes to national security, the Feds 
aren't supposed to just say, ``Well, the States, go ahead and 
do the best you can to take care of yourselves. We've got other 
things to do here.'' You know, the fundamental constitutional 
obligation, the reason we have a Federal Government, is to 
provide for the common defense.
    Mr. Lieu. Thank you.
    Mr. DeSantis. The gentleman's time has expired.
    The chair now recognizes the gentleman from Tennessee for 5 
minutes for his questions.
    Mr. Duncan. Well, thank you very much, Mr. Chairman. And 
thank you for calling this very important hearing.
    This is just one of thousands of things that we deal with, 
so none of us are the experts that you all are, but I can tell 
you this, it's something I've been concerned about for a long 
time.
    In fact, just a few days after the 2003 blackout, I gave a 
speech on the floor, and I quoted from the Associated Press 
story at the time. And it said the proposed improvements that 
they were talking about to keep this from happening a second 
time, it says, ``are making the electricity supply vulnerable 
to a different kind of peril--computer viruses and hackers that 
could blackout substations, cities, or entire States.''
    And the story went on to say, it said, ``In the past, the 
grid's old electromechanical switches and analog technology 
made it more or less impervious to computer maladies, but now 
switches and monitoring gear can be upgraded and programmed 
remotely with software, and that requires a vulnerable 
connection to a computer network. If that network runs on 
Microsoft Corporation operating systems, which virus writers 
favor, or it connects to the Internet, the vulnerabilities are 
increased.''
    That's what came out in 2003. And I'm sorry that I've had 
to run in and out of here and not hear everything you've said 
because I've had some meetings with constituents. But when I 
hear you talking about knocking out the power to 80 percent of 
Turkey--somebody mentioned that--and all of Yemen, in some ways 
it seems like we're almost more vulnerable today than we were 
then. Are we?
    Mr. Baker. The quick answer is ``yes.''
    Mr. Duncan. Well, you know, my wife has told me for years I 
still live in Andy of Mayberry days. And then, a few years 
later, I saw that I had the same birthday as Don Knotts. And 
when I saw that, I thought, well, she's been right all these 
years. So I'm about as low-tech as they come.
    But it seems ridiculous to me that we're so interconnected 
with each other that, when a crew cuts a tree limb in 
Cleveland, Ohio, and it cuts off the power to the entire 
Northeast and part of Canada for several hours, I mean, it 
seems like, to me, that that's just ridiculous that we would 
allow that to happen.
    And it also seems to me that we need to get more people 
interested in this. Because surely we have people that can 
figure out--is it possible, you know, that bigger may not 
always be better? That maybe we shouldn't have these power 
companies that are so big that, if we broke up some of these 
power companies, that we wouldn't be so interconnected, where 
what happened to one would affect people all over the country?
    Mr. Pry. Well, actually, that was one of the 
recommendations of the EMP Commission. It's called 
``islanding.''
    And, in effect, it's kind of what's happening at the level 
of the States. Even though it isn't happening by a plan coming 
out of Washington, by this natural process of the States 
deciding to protect themselves, you're creating islands, you 
know, where, if the big grid goes down, at least that State 
will have its lights stay on. And so----
    Mr. Duncan. Well, that is encouraging. I've been glad to 
hear that, that some of these States are taking individual 
initiatives. I hope that keeps growing.
    Mr. Pry. It makes it harder to do when the NERC claims that 
they've adopted a GMD standard and don't worry about it, 
they're on top of the problem, which they also say about cyber 
and things like that, which tends--is not true, you know, 
because it ends up taking away the incentive for the States to 
protect themselves when NERC convinces them that they are.
    And one--I'd like to also make one last statement, because 
you talked about, are we getting more vulnerable? Another thing 
that needs to be kept in mind is that we are getting more 
vulnerable all the time because of the advance of technology. 
You know, as our semiconductor technology gets better and 
better and faster and faster and runs on lower and lower 
voltages, it becomes more and more vulnerable to the EMP 
effect, which is why we're so vulnerable now.
    Back in 1962, Starfish Prime test, when that happened, the 
vacuum tube technology of the day, you know, was 1 million 
times less vulnerable to EMP. Still, the lights went out in 
Hawaii--1 million times less vulnerable.
    And every time--I think it's every 10 years we have, like, 
a tenfold increase in the capabilities of our semiconductor 
technology. It also becomes tenfold more vulnerable to EMP. So 
this problem is getting worse and worse. It's not just standing 
still while we do nothing.
    Mr. Duncan. Well, what do you think about this bill by 
Congressman Franks? Is that a good first step?
    Mr. Pry. Oh, the Critical Infrastructure Protection Act? 
Absolutely. It's, you know--it would go in a huge way toward 
helping solve the problem.
    Mr. Duncan. I remember several years ago I read on the 
front page of The Washington Post one day that a 12-year-old 
boy opened up the floodgates at the Hoover Dam 700 miles from 
his home because he was able to hack in. And it seems to me 
that, you know, we have a lot of brilliant people out here that 
should be able to--that should be working on this.
    We oversensationalize a lot of these threats because of a 
24-hour news cycle and because so many people in companies make 
money off of threats that are exaggerated. But, in my opinion, 
this is one that's not being exaggerated and that we need to do 
a little bit more. And I appreciate what you all are trying to 
do.
    I've run out of time. I'm sorry, Mr. Chairman. Thank you.
    Mr. DeSantis. The gentleman yields back.
    I want to thank the witnesses for their testimony, for 
answering our questions.
    We wanted to have Congressman Franks testify and present 
both his critical infrastructure bill and the SHIELD Act, but 
he has a bill on the House floor right now, and he's not able 
to attend. So we're sorry that that couldn't be arranged.
    But, clearly, I think, from what the witnesses have said, 
you know, those are the types of pieces of legislation, you 
know, that I think we need to be moving ahead in Congress. And 
so, if this hearing has helped raise more awareness--and 
hopefully we can get some bipartisan support for this stuff and 
move forward.
    I will hold the record open for 5 legislative days for any 
members who would like to submit a written statement.
    Mr. DeSantis. And, with that, this hearing is now 
adjourned.
    [Whereupon, at 3:40 p.m., the subcommittees were 
adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record

    ``Identify Potential Impacts of an Electromagnetic Pulse 
(EMP) Attack on Fire and EMS Delivery Services for the Walpole 
Fire Department'' by Deputy Chief Michael K. Lararacy, Sr., 
Walpole Fire Department, Walpole, Massachusetts, can be found 
here:
http://www.usfa.fema.gov/pdf/efop/efo46308.pdf


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 [all]
</pre></body></html>
